<html>
<title> - THE FAA MODERNIZATION AND REFORM ACT OF 2012: TWO YEARS LATER</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
     THE FAA MODERNIZATION AND REFORM ACT OF 2012: TWO YEARS LATER

=======================================================================

                                (113-52)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 5, 2014

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           
             
             
             
             
             


                       Available online at: http://www.gpo.gov/fdsys/browse/
                     committee.action?chamber=house&committee=transportation
                                        _______________  
        
        
        
        
                          U.S. GOVERNMENT PUBLISHING OFFICE
  86-586 PDF                        WASHINGTON : 2015       
________________________________________________________________________________
	For sale by the Superintendent of Documents, U.S. Government Publishing Office,
	      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
        
        
        
        
        
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
VACANCY
                                ------                                7

                        Subcommittee on Aviation

                FRANK A. LoBIONDO, New Jersey, Chairman
THOMAS E. PETRI, Wisconsin           RICK LARSEN, Washington
HOWARD COBLE, North Carolina         PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee       EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         ANDRE CARSON, Indiana
DANIEL WEBSTER, Florida              RICHARD M. NOLAN, Minnesota
JEFF DENHAM, California              DINA TITUS, Nevada
REID J. RIBBLE, Wisconsin            SEAN PATRICK MALONEY, New York
THOMAS MASSIE, Kentucky              CHERI BUSTOS, Illinois
STEVE DAINES, Montana                CORRINE BROWN, Florida
ROGER WILLIAMS, Texas                ELIZABETH H. ESTY, Connecticut
MARK MEADOWS, North Carolina         NICK J. RAHALL, II, West Virginia
RODNEY DAVIS, Illinois, Vice Chair     (Ex Officio)
BILL SHUSTER, Pennsylvania (Ex 
    Officio)
VACANCY









                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Hon. Michael P. Huerta, Administrator, Federal Aviation 
  Administration.................................................     6
Hon. Calvin L. Scovel III, Inspector General, U.S. Department of 
  Transportation.................................................     6
Gerald L. Dillingham, Ph.D., Director, Physical Infrastructure 
  Issues, U.S. Government Accountability Office..................     6

 PREPARED STATEMENTS AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED 
                              BY WITNESSES

Hon. Michael P. Huerta:

    Prepared statement...........................................    36
    Answers to questions for the record from the following 
      Representatives:

        Hon. Frank A. LoBiondo, of New Jersey....................    51
        Hon. John L. Mica, of Florida............................    55
        Hon. Roger Williams, of Texas............................    56
        Hon. Elizabeth H. Esty, of Connecticut...................    57
        Hon. Daniel Lipinski, of Illinois........................    59
Hon. Calvin L. Scovel III:

    Prepared statement...........................................    68
    Answers to questions for the record from the following 
      Representatives:

        Hon. Frank A. LoBiondo, of New Jersey....................    86
        Hon. Roger Williams, of Texas............................    88
Gerald L. Dillingham, Ph.D.:
    Prepared statement...........................................    89
    Answers to questions for the record from Hon. Frank A. 
      LoBiondo, a Representative in Congress from the State of 
      New Jersey.................................................   115

                       SUBMISSIONS FOR THE RECORD

Aircraft Mechanics Fraternal Association, written testimony......   122
Letter of February 11, 2014, from U.S. Senator Lamar Alexander, 
  et al., to Hon. Anthony Foxx, Secretary, U.S. Department of 
  Transportation.................................................   125



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




     THE FAA MODERNIZATION AND REFORM ACT OF 2012: TWO YEARS LATER

                              ----------                              


                      WEDNESDAY, FEBRUARY 5, 2014

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:01 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Frank A. 
LoBiondo (Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The subcommittee will come to 
order.
    Today we are going to hear from the FAA Administrator, as 
well as the Department of Transportation inspector general, and 
the Government Accountability Office regarding the status of 
the FAA's implementation of the FAA Modernization and Reform 
Act of 2012. It has been almost 2 years. As the subcommittee 
begins to look ahead to the next reauthorization, it will be 
helpful to understand how the FAA has implemented the mandates 
of the last reauthorization.
    Let me begin by congratulating and commending Administrator 
Huerta for the FAA's recent selection of the unmanned aircraft 
system test ranges, as directed by the Reform Act. I know this 
has been sort of a very long and involved process, but one that 
we hope will be able to yield great benefits to our Nation in 
the near future.
    The ranges will be used to test and demonstrate UAS 
technology and capabilities, and gather much-needed safety and 
operational data. As I understand it, the data will be 
transmitted to the FAA Technical Center and its industry 
partners for review and validation, and I welcome any comments 
our witnesses have regarding the FAA's efforts to implement 
this UAS provision of the Reform Act.
    Along with the UAS provisions, there are many other 
mandates included in the Reform Act--roughly 200, I know, as 
the FAA has liked to point out in the past. It is nearly 2 
years since the bill was enacted. The FAA has made progress in 
some areas, but it seems that they remain challenged in others. 
Admittedly, not every provision or mandate is created equal, 
but it is still important to hear about the FAA's progress in 
implementing the law.
    The FAA's NextGen program is a collaborative effort to 
modernize the air traffic control system using new technologies 
that are intended to increase efficiency and capacity, improve 
safety, reduce aviation's impact on the environment. The Reform 
Act made significant changes to the NextGen program, and the 
FAA has made progress implementing some provisions. But as the 
GAO and IG point out in their testimony, significant actions 
are needed to meet the intent of the Reform Act and improve the 
execution and management of NextGen.
    For example, the FAA needs to demonstrate benefits, such as 
through the use of ADS-B technology or the implementation of 
performance-backed GPS approaches, two areas in which the FAA 
is lacking, according to the GAO and IG. Taxpayers and airspace 
users have invested a lot of money and a lot of time and a lot 
of energy in NextGen, but, considering repeated program delays 
and cost overruns, as well as our ongoing budget constraints, 
we need to hold the FAA accountable for implementing NextGen.
    Further, I want to make clear to Administrator Huerta that 
I am closely monitoring the FAA's response to the NextGen 
Advisory Committee's priority recommendations. This was not an 
exercise undertaken to validate FAA's NextGen implementation 
plan, and it should not be treated as such by the FAA.
    The NAC stakeholders responded to an FAA request quickly 
and deliberately, and produced a set of consensus-based 
recommendations regarding which NextGen capabilities need to be 
prioritized, given the tight Federal budget environment. These 
recommendations must be taken seriously, and the agency has to 
show stakeholders that it is taking the necessary steps to 
address them.
    The Reform Act also includes provisions intended to allow 
NextGen to move forward while saving taxpayers money by 
establishing process for the FAA to consolidate and realign 
facilities and services without adversely impacting safety. The 
law requires the FAA to develop a report with recommendations 
and transmit it to Congress. The law ultimately gives the 
agency the authority to implement congressionally approved and 
stakeholder-supported recommendations.
    The FAA has a plan to develop a series of realignment and 
consolidation reports, and the agency will include stakeholders 
in the decision. But if delays persist, it will be yet another 
roadblock in air traffic control modernization.
    Another similar good governance provision requires the FAA 
to review its programs, offices, and organizations to identify 
wasteful practices, obsolete functions, and inefficient 
processes, and recommend ways to address these inefficiencies. 
More importantly, it requires the agency to carry out its 
recommendations and actually address its finding.
    The FAA has submitted its findings to Congress, but I am 
not aware of any actions the agency has taken to implement 
them. Congress did not intend for the FAA to issue a report and 
just let it sit on the shelf and collect dust. The FAA must act 
on its recommendations and keep Congress informed on its 
progress.
    Despite the delays we have experienced, there are many 
important provisions that must be implemented addressing FAA 
staffing, certification processes, passenger rights, and safety 
issues. I look forward to hearing the status of these, along 
with the UAS, NextGen, and good governance provisions included 
in the Reform Act.
    And, with that, I ask unanimous consent that all Members 
have 5 legislative days to revise and extend their remarks, and 
include extraneous material for the record of this hearing.
    [No response.]
    Mr. LoBiondo. Without objection, so ordered. Now, I would 
like to turn to Ranking Member Larsen for any comments he may 
make.
    Mr. Larsen. Thank you, Chairman LoBiondo, for today's 
hearing on ``The FAA Modernization and Reform Act of 2012: Two 
Years Later.'' Mr. Chairman, this month marks the halfway point 
of the FAA reauthorization cycle, and it is a good time to stop 
and assess the FAA's progress implementing the 2012 act.
    Together, we must take stock of those areas the act--the 
FAA has successfully implemented, and note where Congress may 
need to make adjustments, as we look forward to the next 
authorization. Looking forward, the force of globalization and 
the growth of emerging international markets present both 
opportunities and challenges for American aviation. And as I 
said in our last hearing, we simply can't write a 
reauthorization bill for 2015 without understanding what is 
happening in the rest of the world. The aviation industry is 
global, it is competitive, there are new entrants in the market 
every day.
    What happens in Shanghai, New Delhi, Moscow, Buenos Aires, 
or Seattle matters here, in Washington, DC, and around the rest 
of the country. And what the FAA does here in the U.S. will 
affect our ability to compete internationally.
    The FAA authorization contains several provisions intended 
to accelerate, for instance, the deployment of NextGen. And at 
the request of this committee's bipartisan leadership, the 
Department of Transportation IG recently audited the FAA's 
implementation of those provisions. The audit noted that, to 
date, the FAA has implemented roughly half of these provisions. 
And, according to the IG, the FAA's difficulty in implementing 
the remaining provisions and meeting stakeholder expectations 
for NextGen more generally stem from programmatic and 
organizational challenges.
    Mr. Chairman, one of the key takeaways from the 2009 RTCA 
NextGen implementation task force report was that 
organizational structure matters. The officials responsible for 
planning and implementing NextGen must have responsibility, 
they must have accountability, and they must have authority to 
get the job done. And, to its credit, the FAA has had some 
successes advancing individual and NextGen programs. Yet that 
is not always the case.
    Mr. Chairman, you and I have held several hearings and 
listening sessions last year, where we have heard from some 
frustration from aviation stakeholders regarding the FAA's 
ability to deliver near-term NextGen benefits. We have also had 
continuing concerns that FAA's efforts to advance NextGen at 
the programmatic level are not properly integrated across the 
agency's lines of business. And, for several years, 
stakeholders have stressed the need for unity of effort across 
FAA lines of business and between FAA's partner agencies to 
achieve both near and long-term NextGen benefits and vision.
    And we have attempted to strengthen the NextGen 
organizational structure in the 2012 authorization bill by 
creating a Chief NextGen Officer. And last June, Michael 
Whitaker assumed this role, and last September the FAA 
appointed Major General Edward Bolton to fill the position of 
Assistant Administrator for NextGen.
    So, as we look forward to the next reauthorization, it will 
be important for this committee to evaluate whether the 
organizational reforms that Congress made have been effective, 
or whether additional reforms are warranted. So, I look forward 
to hearing witnesses' thoughts on that subject.
    The disposition and physical condition of FAA facilities 
are also tied to the successful roll-out of NextGen. Moreover, 
there are critical safety and qualify-of-life issues for FAA's 
employees. And last September the GAO reported the FAA's 
staffed facilities had a backlog of approximately $260 million 
in deferred maintenance. Further, the existing technology at 
several terminal facilities must be upgraded to accommodate 
NextGen. And for these reasons, section 804 of the 2012 act 
required FAA to complete a study on the consolidation and 
realignment of FAA facilities.
    So, Administrator Huerta, I commend the proactive and 
collaborative approach that you have taken to address the FAA's 
need to consolidate its aging facilities. As directed by the 
authorization, you are working closely with the affected FAA 
employees unions through a comprehensive process to identify 
cost-beneficial consolidation opportunities. And based on the 
briefing that you provided to the committee leadership last 
year, we expect that FAA will provide initial consolidation 
recommendations early next year, right around the time that the 
subcommittee will be taking action on the next reauthorization. 
And while we hope that facility consolidation will provide cost 
savings in the long term, I can imagine it may be an expensive 
undertaking at the outset.
    So, the subcommittee will need to examine whether the FAA's 
current capital funding levels will support facility 
consolidation, or whether Congress will need to increase the 
FAA's capital budget to support this effort. We will also need 
to make sure that labor groups are included in the 
decisionmaking process.
    Now, one last key issue I hope to discuss in more detail 
today does concern the unmanned aircraft systems, or UAS. Mr. 
Chairman, unmanned aircraft are not a next generation 
technology, they are very much in the here and now. Like many 
other innovations in aviation, the growth and development of 
large, unmanned aircraft have been spurred by military 
necessity. We have seen large UAS technology mature over the 
last decade through thousands of operational hours and missions 
flown over the battlefields of Iraq and Afghanistan.
    The FAA estimates that we can expect 7,500 small, unmanned 
aircraft in the National Airspace System over the next 5 years, 
provided regulations and operational guidelines are in place to 
handle them. In fact, you don't need to go much farther than 
the Internet today to see that entrepreneurs are finding 
creative applications for small, unmanned aircraft, as we sit 
here today.
    So, Congress and the administration must ensure these 
systems are safe before they are being fully utilized, and for 
the benefit of the public and for private-sector applications. 
For this reason, FAA authorization required the FAA to safely 
integrate UAS into the National Airspace System by September 
30, 2015. The act also provides FAA with specific tasks and 
milestones on its path towards that integration.
    And while the FAA has completed roughly half of the UAS 
provisions set out in the act, it has missed most statutory 
deadlines for the provisions it has completed. For example, 
last December the FAA announced six UAS test ranges, where the 
agency will collect data to address safety and operational 
issues. Yet, according to the IG, FAA officials do not believe 
that the agency will meet the September 2015 milestone for safe 
UAS integration. Additionally, GAO will testify today that FAA 
will probably not meet the August 2014 final rule deadline for 
small, unmanned aircraft required by the act itself.
    So, Mr. Chairman, this subcommittee must provide rigorous 
oversight in the coming months to ensure that FAA stays on 
track implementing these important provisions.
    And so, with that, I want to thank you for an opportunity 
to provide an opening statement, and look forward to hearing 
from the witnesses.
    Mr. LoBiondo. Thank you, Mr. Larsen. I would now like to 
turn to the chairman of the full committee. Mr. Shuster, thank 
you for joining us.
    Mr. Shuster. Thank you, Chairman LoBiondo. And I want to 
associate myself with the remarks of both Chairman LoBiondo and 
Ranking Member Larsen. Today's hearing is about where we are 
with the existing law, which was passed 2 years ago. I think it 
is obviously important. We know where we have been, and we have 
had challenges and some fights. We need to know where we are in 
regard to the last authorization.
    In particular, that reform includes acceleration of 
NextGen, which I think is extremely important--I think 
everybody in the industry is behind that--improving the FAA's 
organizational structure, and achieving other efficiencies in a 
number of areas. But I also think it is important that we start 
the discussion as to where we are going, and what the future 
holds. And I understand that--hopefully we will confirm it 
today--that the Department of Transportation, FAA, is already 
starting to talk about the future of FAA and of the industry.
    And we have started--I gave a speech in December and I 
think it is important that we bring the stakeholders together. 
And well before we start doing reauthorization on the next 
reauthorization bill, which expires in September of 2015, is 
bring the stakeholders in to talk about it to find out their 
ideas.
    You know, we invented the aviation industry, the United 
States of America. We are the leader in it. And if we are not 
careful, if we are not proactive, we are going to lose it, just 
like--you look at other industries that America was the leader 
in, whether it was textiles, steel, autos, electronics. You 
know, we are playing second fiddle to the rest of the world 
now. And I don't want to see us--I don't want to see that 
happen to our aviation and our airline industry.
    Today they are under attack from foreign carriers that 
don't operate under the same rules or regulations, in many 
cases, that we have to operate in. They don't have the same 
desire and focus on making a profit; for some of these 
carriers, it is just an economic development tool. So we have 
to take that into consideration as we move forward. Our 
manufacturers are under attack from foreign manufacturers, and 
our own regulatory agencies are hammering down on us. We have 
already seen, with the hours of service and the training 
requirements that go into place, we are seeing cancellations, 
and not just because of the weather. I am hearing stories over 
and over again that they are short on pilots, and there is 
going to be a major shortage in the near future.
    So, again, we have to step back, really look at what we are 
doing, or else, as I said, I fear we are going to lose our lead 
in this industry, which provides $1 trillion to the United 
States economy. And that is something that, again, we need to 
look around the world and see what they are doing. You look to 
see what the Europeans are doing, their public-private 
partnerships when it comes to their airports, what are the 
certification processes in whether it is Canada or Brazil or 
Europe. They are faster than we certify our equipment and 
especially our smaller aircraft.
    In addition, what Canada has done with their air traffic 
controller system, I think we need to take a hard look at that 
and see if that is able to be done in America. Does it make 
sense? Can it be done? Is it something that would be positive 
for our aviation, our airline industry?
    So, as the coming months go, I have been joined by--
certainly, Mr. LoBiondo is going to be leading the effort, 
along with myself and Representatives Graves will be meeting 
with stakeholders across the spectrum, talking to them. And 
when we get to that next reauthorization, hopefully we will 
have a unified front to move forward in a number of different 
ways to really transform what we do in the airspace above us 
and moving people and moving cargo and making sure that our 
manufacturers and general aviation are all robust and intact.
    So, with that, I look forward to hearing your testimony 
today, and yield back.
    Mr. LoBiondo. Thank you, Chairman Shuster, and thank you 
for recognizing, understanding, and emphasizing the critical 
importance of aviation to our Nation.
    Now we are going to turn to our first witness today, FAA 
Administrator Michael Huerta. Administrator Huerta, you are 
recognized, and thank you for being here.

  TESTIMONY OF HON. MICHAEL P. HUERTA, ADMINISTRATOR, FEDERAL 
 AVIATION ADMINISTRATION; HON. CALVIN L. SCOVEL III, INSPECTOR 
   GENERAL, U.S. DEPARTMENT OF TRANSPORTATION; AND GERALD L. 
 DILLINGHAM, PH.D., DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, 
             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Huerta. Thank you. Chairman LoBiondo, Ranking Member 
Larsen, Chairman Shuster, members of the subcommittee, it is a 
pleasure to be here to talk about what we have accomplished 
since the very important reauthorization of the FAA 2 years 
ago.
    We are grateful that everyone came together to reauthorize 
the FAA, and to support the work we do, in running the largest 
and safest aerospace system in the world. We also appreciate 
the compromised spending bill that Congress passed in December. 
It provides a framework that lends stability for the next 2 
years during what may still be an uncertain budget environment.
    The reauthorization of the FAA was truly comprehensive in 
nature, and contained more than 200 deliverables from the FAA. 
We have either completed or are on track to complete more than 
80 percent of those requirements. I would like to highlight a 
few areas where Congress gave us direction, and where we have 
made considerable progress.
    First, we have strong leadership in place for NextGen. Last 
time I appeared before you, we had just named Mike Whitaker as 
Deputy Administrator of the FAA and Chief NextGen Officer, a 
role that was mandated by the reauthorization. Now, General Ed 
Bolton has joined the FAA as Assistant Administrator for 
NextGen. He is a retired Air Force general with many years of 
experience as an engineer and manager of large, complex 
programs.
    We want to be sure that the modernization of our Nation's 
airspace is creating benefits. As part of reauthorization, 
Congress asked us to track 12 metrics, things like arrival and 
departure rates, system capacity, and gate-to-gate travel 
times, to name a few. These metrics can help determine the 
impact our work is having on airlines and on passengers. We are 
collecting this data and posting it every month on our public 
Web site. We are close to finalizing the software and hardware 
updates to our air traffic control system that will form the 
foundation of NextGen, and will allow us to deliver those 
benefits.
    One essential program is ERAM, the En Route Automation 
Modernization. This modern computer system will control 
aircraft at cruising altitudes. We are making great progress. 
Right now, 18 of 20 en route centers have started running ERAM. 
More than half are using it exclusively to control air traffic, 
instead of the legacy system of the 1960s. All of these en 
route centers are expected to use the new system exclusively by 
March 2015.
    I would like to return to another mandate in the 
reauthorization, namely, unmanned aircraft systems. This class 
of vehicle is truly a game-changer. The FAA released two 
documents in November to set the stage: a comprehensive plan to 
integrate unmanned aircraft into our Nation's airspace, and a 
detailed road map on how to do it. The road map addresses the 
policies, the regulations, the technologies, and the procedures 
that we need to integrate unmanned aircraft on a routine basis. 
To accomplish this, we must change the way we do business.
    In December, as the chairman noted, we announced six test 
sites across the Nation that will conduct essential research 
into the safe use of unmanned systems. Safety, as you know, is 
our priority. We need to address operational issues, such as 
ensuring that unmanned aircraft can detect and avoid other 
aircraft, that unmanned systems operate safety if they lose 
link to their pilot, and this is why developing additional 
research from the test sites is so important.
    Agencies across the Government are coming together to 
address privacy concerns that may arise with increasing use of 
unmanned aircraft. We recognize there has been a great deal of 
public concern about privacy. For the test sites, we issued a 
privacy policy that requires operators to comply with all 
local, State, and Federal laws concerning privacy and civil 
liberties.
    The FAA has successfully brought new technology into the 
aviation system for more than 50 years, and I have no doubt we 
will do the same with unmanned aircraft.
    Finally, we have completed work on a range of other 
important reauthorization proposals. Last fall, we created the 
Center of Excellence for Alternative Jet Fuels and the 
Environment. This research will help develop and deploy 
alternative jet fuels, which will provide supplemental supply 
and help cushion petroleum's price volatility. We have also 
completed reports on a number of safety-related matters, such 
as staffing, for safety-critical positions. And we delivered a 
report to Congress, as requested, reviewing the agency's 
operations, and ensuring that we take every opportunity to 
operate as efficiently and as effectively as we possibly can.
    Two years ago, reauthorization gave our agency needed 
predictability and stability, as well as guidance on 
priorities. Next year, we will be considering FAA 
reauthorization in the context of a challenging fiscal backdrop 
with increasing demands. I look forward to continuing to work 
with the committee to create a vision as we work toward that 
reauthorization.
    Thank you very much. I would be happy to answer any of your 
questions.
    Mr. LoBiondo. Thank you, Mr. Huerta. Our second witness 
today is Department of Transportation Inspector General Calvin 
Scovel.
    Inspector General Scovel, you are recognized for a 
statement.
    Mr. Scovel. Chairman LoBiondo, Ranking Member Larsen, 
Chairman Shuster, members of the subcommittee, thank you for 
inviting me to discuss FAA's progress in implementing the FAA 
Modernization and Reform Act of 2012. My testimony today will 
focus on three key areas: implementing NextGen and other 
modernization provisions; safely integrating unmanned aircraft 
systems into the National Airspace System; and effectively 
employing two safety workforces, controllers and inspectors.
    Our past and ongoing work shows that longstanding issues 
continue to challenge FAA's efforts to improve airspace 
efficiency and realize the benefits that Congress envisioned 
when it passed the Reform Act 2 years ago. As of last month, 
FAA had implemented half of the act's 24 NextGen provisions, 
including appointing a Chief NextGen Officer. Despite this 
progress, FAA has not implemented key provisions intended to 
accelerate NextGen technologies, including those needed to 
shift from ground-based radar to satellite-based systems.
    For example, FAA will not be in a position to implement 
ADS-B In, which will bring new capabilities to the cockpit, for 
several years, due to changing technical requirements and a 
lack of well-defined policies regarding equipment and 
certification.
    Programmatic and organizational challenges also continue to 
impact FAA's progress with delivering NextGen benefits. For 
example, FAA has not set realistic plans, budgets, and 
expectations for key programs, and its organizational culture 
has been slow to embrace NextGen's transformational vision. 
These weaknesses have contributed to stakeholder skepticism 
about FAA's plans for NextGen.
    Another critical step for NextGen will be the successful 
realignment and consolidation of air traffic control 
facilities. FAA recently provided Congress with its realignment 
and consolidation plan, per the act. But the plan is smaller in 
scale and less ambitious than previous ones. Going forward, it 
will be important for the agency to establish sound metrics to 
determine whether facility realignments and consolidations will 
result in cost savings and efficiencies.
    The Reform Act also calls for FAA to safely integrate 
unmanned aircraft systems into the Nation's airspace. As of 
last month, FAA completed 8 of the act's 17 UAS provisions, 
which included publishing a 5-year road map, and selecting six 
test sites. However, the agency will not meet the September 
2015 deadline for safe UAS integration, and it is uncertain 
when this will be achieved.
    To ensure safe UAS integration, FAA needs to overcome 
significant technological barriers, including developing 
detect-and-avoid technology to ensure unmanned aircraft do not 
collide with other aircraft. Existing communication technology 
is also inadequate to prevent losses of connectivity between 
ground stations and unmanned aircraft. Although research is 
underway, it is unclear when these efforts will produce the 
technology needed for successful UAS integration.
    Another UAS priority is to establish minimum regulatory 
standards. The agency has worked with a special advisory 
committee for over 9 years, but has not reached consensus among 
Government and industry stakeholders on minimum UAS performance 
standards. FAA will also need to develop standards for UAS 
operator qualifications, ground control stations, and 
operations for private or commercial use.
    Also in public use, UAS have been certified to operate in 
U.S. airspace. Their safe integration has been impacted, in 
part, by a lack of UAS-specific air traffic controller 
procedures and training. Currently, unmanned aircraft must be 
segregated from the normal traffic flow, and controllers have 
told us that existing automation systems are inadequate for 
managing UAS flight plans, which typically contain a large 
amount of navigational data.
    Moreover, FAA cannot ensure that public-use UAS operators 
report all safety incidents, and has been unable to obtain 
other useful data from DOD because of data sensitivity and 
coordination issues.
    Finally, FAA has not effectively maximized key segments of 
its safety workforce. The agency has yet to fully implement a 
new staffing model to determine the number of Flight Standards 
safety inspectors it needs and where to place them, and data 
quality problems have prevented FAA from fully relying on the 
model's results.
    FAA also needs metrics to determine whether its new 
controller scheduling policies will reduce controller fatigue. 
We found that a small percentage of controllers did not always 
comply with minimum rest requirements between shifts. Further, 
FAA could reduce the cost of overnight operations at 72 
facilities that do not have enough traffic to require overnight 
controllers. To address these issues, FAA plans to implement a 
new scheduling tool to enhance cost efficiency, and introduce a 
new timekeeping system to reduce the number of scheduling 
violations.
    At the request of this subcommittee, we are initiating a 
review of FAA's organizational structure, including an 
assessment of whether the agency's structural and 
organizational reforms have improved its operational, 
technological, and cost effectiveness. We will keep the 
subcommittee apprised of our work.
    This concludes my prepared statement. I would be happy to 
answer any questions you or members of the subcommittee may 
have.
    Mr. LoBiondo. Thank you, Inspector General Scovel.
    Our final witness today is Dr. Gerald Dillingham with the 
Government Accountability Office. Dr. Dillingham, you are 
recognized. Thank you for being here.
    Dr. Dillingham. Thank you, Mr. Chairman, Ranking Member 
Larsen, Chairman Shuster, and distinguished members of the 
subcommittee. My statement this morning focuses on some key 
provisions in the 2012 FAA Reauthorization and Reform Act, as 
outlined by the committee leadership this morning. 
Specifically, implementing NextGen, improving FAA's 
certification processes, and integrating UAS into the National 
Airspace System.
    Regarding NextGen, as the Administrator has said, FAA has 
filled key NextGen leadership positions over the last year. 
However, our work shows that it remains to be seen whether 
these leaders will be able to leverage support and resources 
across FAA to effectively lead NextGen implementation.
    Additionally, with the recent legislation eliminating 
direct funding for JPDO, it is unclear how the roles and 
responsibilities of that office, particularly with respect to 
long-term planning and coordination of research and development 
efforts across partner agencies, will be redistributed within 
FAA.
    The act also included several provisions to accelerate the 
creation of performance-based navigation procedures. Our 
analysis shows that FAA has made some important progress in 
this area, but key elements remain a work in progress.
    For example, FAA does not have a data system for tracking 
the use of existing PBN procedures and, therefore, is unable to 
assure that investments in these routes, including the cost to 
maintain them, is justified. Furthermore, without these data, 
FAA cannot demonstrate the value of PBN technologies and any 
resulting benefits to help convince stakeholders of the need 
for continued NextGen investment.
    The act also directed FAA to complete a study on the 
consolidation and realignment of FAA facilities and services, 
which is critical to the NextGen transition. As you have heard 
in earlier testimony, FAA plans to assess which facilities to 
consolidate or realign over the next year, likely meaning any 
consolidation or realignment of FAA facilities remains years 
away.
    Failure to follow through on efforts to deploy new 
capabilities, consolidate, and realign facilities, and 
discontinue systems facing significant sustainment issues is 
important, not only for an efficient transition to NextGen, but 
also so that FAA does not miss potential opportunities to 
reduce overall maintenance costs at a time when resources 
needed to maintain both systems will become scarcer.
    Regarding FAA certification process, variations in FAA's 
interpretation of standards for certification and approval 
decisions has been a longstanding concern of the aviation 
community. The 2012 act required FAA to work with the aviation 
community to identify ways to streamline and re-engineer the 
certification process, and address findings from our 2012 
report on the topic. FAA has taken some actions in response to 
these provisions, including developing initiatives to address 
the concerns that have been raised about its certification 
processes. At the request of this committee, GAO will be 
examining FAA's implementation of these efforts.
    Turning to the integration of UAS into the National 
Airspace System, FAA, again, has made progress in implementing 
several of the 17 UAS provisions contained in the Modernization 
and Reform Act, albeit much later than the timeframes outlined 
in the act. While progress is being made, there are some 
significant hurdles and challenges that FAA must still overcome 
to fully integrate UAS into the NAS.
    For example, although FAA created the UAS integration 
office in 2013, the office does not have resources specifically 
dedicated to fulfill its responsibilities. In addition, small 
UASs are expected to represent the majority and most 
economically promising segment of the civilian market. However, 
the rulemaking for operating small UAS in the NAS continues to 
be delayed.
    Finally, while FAA has announced the six locations for a 
UAS test program, FAA has not yet defined what operational 
safety and performance data it needs from the test site, or how 
the data will be collected and analyzed. These data will be 
critical to developing the safety, reliability, and performance 
standards needed to guide and validate research and development 
efforts.
    Given the status of these efforts, stakeholders remain 
concerned about FAA's ability to meet the 2015 timeline 
outlined in the act.
    Thank you, Mr. Chairman, Ranking Member Larsen, and members 
of the subcommittee. This concludes my statement. I will be 
pleased to respond to any questions.
    Mr. LoBiondo. Thank you, Dr. Dillingham.
    For Administrator Huerta, the NextGen Advisory Committee 
delivered their consensus-based priority recommendations for 
NextGen capabilities based on the ongoing Federal budget 
constraints, which have all of us pretty worried. What is the 
FAA doing to address these recommendations? And can you give us 
a sort of a status report of where this all is?
    Mr. Huerta. We were very pleased with the work done by the 
NextGen Advisory Committee to develop two tiers of 
recommendations, and to ask us to focus on those in the first 
tier as our highest priority.
    We are currently evaluating those recommendations, looking 
at the trade-offs and the relationships between the 
recommendations that they made, and we will be responding to 
them by the end of February. It was a very good body of work 
that I think gave us a nice industry consensus on what a path 
forward would look like.
    Mr. LoBiondo. So it seems like it is something that is 
pretty workable for you?
    Mr. Huerta. It does. One of the things that we need to 
ensure is that there are not unintended side effects in terms 
of how they might have bundled the recommendations. But it is 
very good work.
    Mr. LoBiondo. Any idea on when you might have a better 
handle on how that will come together?
    Mr. Huerta. We are going to be discussing it with the 
NextGen Advisory Committee at their meeting, which is coming up 
later this month in Phoenix.
    Mr. LoBiondo. OK. Inspector General Scovel, Deputy 
Administrator Whitaker was appointed in June of 2013. Can you 
tell us if you have seen any changes he has made to the FAA to 
address issues regarding the implementation of NextGen?
    Mr. Scovel. Thank you, Chairman LoBiondo. General Bolton's 
appointment as Assistant Administrator for NextGen was a very 
promising development. Mr. Whitaker's designation as Chief 
NextGen Officer in his capacity as Deputy Administrator for the 
agency went a long way to helping the organization align its 
efforts, to use Mr. Larsen's phrase from his opening statement, 
to develop a unity of effort in order to put NextGen on the 
proper track.
    Since Mr. Whitaker has been designated as Chief NextGen 
Officer, the agency has completed two actions that we consider 
instrumental. First was, as I mentioned, the designation of 
General Bolton in his executive role as Assistant Administrator 
for NextGen. And, finally, what Administrator Huerta addressed 
earlier was the request to the NAC to develop recommendations 
for prioritization of NextGen investments. That has been 
completed, and that has been a very promising development.
    It remains to be seen where we go from here. The 
recommendations from the NAC align very closely with what this 
committee and my office learned from the RTCA Task Force 5 
recommendations from 2009. There is not a whole lot of 
difference there, so we would expect the agency to be primed 
and ready to move out as quickly as possible on those.
    We do have continued reservations about the unity of effort 
prospect. While Mr. Whitaker and General Bolton are in place, 
the program management office for NextGen is still aligned 
under the air traffic organization, so there is a division. 
There is a fault line, in my view, between what Mr. Whitaker 
and General Bolton can bring to the organizational vision, and 
what the program management office can ultimately implement and 
deliver.
    Mr. LoBiondo. Thank you. Dr. Dillingham, the GAO is 
conducting a study regarding the FAA's CTI program. Can you 
give us an update on your work?
    Dr. Dillingham. Mr. Chairman, we were asked by this 
committee last year to conduct a study on the CTI program. The 
issue was, whether there was a way in which the FAA could get 
better qualified or more air traffic controllers from the CTI 
program. At that point, the FAA informed us that they were 
doing a pilot study that was the mirror image of our study. In 
other words, they were looking at how to maximize what could 
come from the CTI schools. So we put our study on hold until 
the FAA was able to do a similar study.
    We recently found out that FAA has changed its mind about 
maximizing the CTI schools, and we are hearing now that the FAA 
is planning for an off-the-street hire, as opposed to 
maximizing the CTI. We are talking with your staff now, as to 
whether we should re-institute our study to follow up on the 
original request that we had.
    Mr. LoBiondo. Thank you. Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman. I am not going to take 
the whole 5 minutes; we have Members on our side who are here 
to ask questions. And so, I just want to follow up on a few 
things, really.
    Administrator Huerta, Inspector General Scovel said there 
is still maybe a fault line between program management at the 
FAA regarding NextGen implementation and the organizational 
chart, if you will, of having a NextGen officer. Do you see a 
fault line? If there is a fault line, how are you trying to 
address that? How are you trying to break that down?
    Mr. Huerta. I think it is a matter of judgment. The NextGen 
organization under General Bolton is ultimately responsible for 
system integration of the programs, and ensuring that they all 
work with one another. There is a separate but equally 
important requirement that the new programs and the new 
systems, as they are developed, integrate with the overall 
operation. It was for that reason that we made the 
organizational decision to align them with the operation.
    We have had previous experience of a fault line emerging 
between a program developer developing a new system, but not 
having any clear linkage to the operation. That is what led to 
the initial deployment problems with respect to our ERAM 
program. It is a matter of, any way you cut it, you have to 
draw an organizational distinction somewhere.
    The idea of putting the programs with the operation is to 
ensure that they would be operationally relevant, so that we 
could bring the workforce into the development of the program, 
and assure that it is actually meeting the needs of the 
operating workforce. The NextGen organization has the 
responsibility for system integration, and they need to be able 
to work across the whole FAA, not just air traffic, but also 
with the certification side of what we do.
    We are aware of the organizational distinctions, but we 
think that we have programs and processes in place that enable 
us to address them.
    Mr. Larsen. Under UAS it seems that there is some 
consensus, perhaps, in IG and the GAO that the timelines aren't 
going to get met for implementation. What is your personal 
assessment of that?
    Mr. Huerta. I have always viewed integration of UAS as a 
staged implementation process, just as we implement all 
aircraft into the NAS. There is not a single day where we could 
safely ensure that any type of unmanned aircraft could operate 
unconstrained within the National Airspace System. So we view 
it much more as classes of operation that, over time, will be 
introduced into the system, just as any other aircraft is 
introduced into the system.
    Mr. Larsen. If that is the case, do you think that--not 
that I am asking you to question the judgment of Congress, 
obviously, because we wrote the act and had these timelines in 
it; do you anticipate that you may come back and ask us to have 
the new--the next version of the act reflect more of a staged 
implementation, as opposed to a hard deadline?
    Mr. Huerta. I think that every day we learn something new 
about what is happening in unmanned aircraft. There are a 
combination of issues regarding how these aircraft operate. 
There are also potential uses that the private sector and 
Government users would like to put forward for their use. That 
illuminates the discussion.
    Likewise, as a result of having the test sites, it provides 
the platform for us to do the sort of research that Inspector 
General Scovel talked about. What are the technologies that 
need to be in place to accomplish sense and avoid? How do we 
appropriately train operators, and what are the certification 
standards that we need to hit? We are going to continue to 
learn more. Reauthorization will, in fact, provide us with an 
opportunity to consider where we are at that point.
    Mr. Larsen. That is fine. Thanks, Mr. Chairman. I will 
yield back.
    Mr. LoBiondo. Chairman Shuster?
    Mr. Shuster. Thank you, Mr. Chairman.
    Administrator Huerta, as I said in my opening, I wanted to 
find out what you were doing, looking forward at the FAA. Is 
it, in fact, true that you have put working groups formed at 
DOT and at FAA?
    Mr. Huerta. Mr. Chairman, in looking forward to the next 
reauthorization, I think that there are a number of factors 
that we need to consider. The first is to determine where we 
sit now that there are large segments of the aviation industry 
that feel that we are on an unsustainable course. We need to 
look at how we finance the programs, what is the array of 
services that we provide to the aviation community, how do we 
pay for all of it?
    As just one example, this committee has provided direction 
to us that we should do everything that we can to enhance 
performance-based navigation. In enhancing performance-based 
navigation, which the agency is very committed to, we are, by 
definition, reducing the burn of aviation fuel. Aviation fuel 
taxes provide an important source of funding for the aviation 
system. So, right there is an indication of an issue that we 
need to consider, going forward.
    The aviation industry has traditionally taken different 
positions on what a way forward looks like. I share your belief 
that the industry has to come together around a set of 
principles. I have asked the Administrator's Management 
Advisory Council--they represent a broad segment of the 
industry--to play a central role in reaching out to the 
community, to have a conversation about what services the 
agency needs to provide to the aviation industry in the years 
ahead. How do we pay for it? What issues do those questions 
raise, with respect to our structure and framework?
    Mr. Shuster. Well, that is positive to hear, that you are 
looking at those types of things, because I think it is 
important. And working with us as we move forward is, I think, 
going to be critical.
    Mr. Huerta. Absolutely.
    Mr. Shuster. You also said in your testimony that you will 
follow an agreed-upon process when looking at consolidating and 
realigning some of the facilities.
    Mr. Huerta. Sure.
    Mr. Shuster. And actually, I think you said the initial 
outreach to industry stakeholders might be impacted by 
recommendations of the Reform Act that directs the FAA to 
develop that plan with participation with the industry----
    Mr. Huerta. Sure.
    Mr. Shuster [continuing]. Not just outreach. So can you 
tell us how you are going to work with industry and labor to 
include them in that?
    Mr. Huerta. We briefed the leadership of the committee and 
the staff about the process that we are following. As it was 
originally envisioned in section 804, there was thought that it 
would be a single process that would look at the full scope of 
FAA facilities. As we discussed with you recently, we concluded 
that a staged approach, where we could ensure that we have a 
full and complete collaboration with our stakeholders, with the 
people who work in these facilities, the people who maintain 
these facilities. We need to develop a very clear understanding 
of the current state of the facilities, with respect to what 
maintenance is required, or what facilities need to be 
replaced. As was mentioned earlier, we do intend to provide our 
first report to you at the end of the year.
    I think the key question here that we are going to need to 
address is the question that was referenced by Congressman 
Larsen. Any time you are realigning facilities, by definition, 
there is a bill that we are going to have to pay to develop 
what a new facility footprint looks like. That is going to 
require an investment. Effectively, we have to invest money to 
enable us to achieve long-term savings down the road.
    Mr. Shuster. Well, including those stakeholders, making 
sure that they are involved----
    Mr. Huerta. Absolutely.
    Mr. Shuster [continuing]. Is a positive path forward for 
us.
    Mr. Huerta. Absolutely.
    Mr. Shuster. And a question to Mr. Dillingham. You talked 
about the inconsistencies in the FAA's aircraft certification 
program. They have a plan to try to deal with those. You have 
identified a few areas of concern. Could you elaborate on 
those?
    Dr. Dillingham. Yes, Mr. Chairman. As part of the act, FAA 
was mandated to review their certification and approval 
process, improve its efficiency, and deal with the 
inconsistencies of interpretation of regulation, meaning what 
was happening with the industry was that if you were in one 
region and you had a product approved and you submitted that 
product in another region, it may or may not be approved.
    So, the FAA put together some committees with industry 
participation. They made recommendations to both address the 
integration to make sure that there was consistency, as well as 
to facilitate improving the efficiency of the process. FAA 
developed a plan to do that with a set of initiatives. Your 
committee has asked us to follow up and ensure that FAA, in 
fact, implements those recommendations.
    It has been a longstanding problem with the industry, and 
we are already starting to look at that issue.
    Mr. Shuster. Thank you very much. I see my time has 
expired. But just as I said in my opening, you know, this is 
one of the areas that we are leading in the world and in 
manufacturing, especially small aircraft. And if we are not 
able to speed that process up, I fear that it is going to go 
elsewhere, equipment is going to be developed elsewhere, and we 
are not going to be the leader in the industry. So I think it 
is important that we work on this.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Administrator, 
question. I have been working on--started many years ago with 
Representative Bill Lipinski and Representative Costello, who 
have gone on to different things, but I am still here. The 
provision regarding foreign repair stations: it was supposed to 
be done by, let's see, I think 2/14/2013. That is a week from, 
you know--this would be the first anniversary of not getting it 
done. Where are we at?
    Mr. Huerta. There are two provisions relating to foreign 
repair stations in reauthorization, one relating to drug and 
alcohol testing requirements. I think that is the one you are 
referring to.
    This one required a consultative process through ICAO, the 
Secretary of Transportation, and the Secretary of State 
notified all ICAO governments. We are now at the point where we 
are ready to commence the rulemaking process later this year.
    Mr. DeFazio. Yes. I am just puzzled that it would take so 
long, and that we would allow foreign repair stations, where 
their workers do not meet our standards, to do critical 
maintenance work on aircraft. It causes me great concern. It 
goes beyond just the drug and alcohol testing and a number of 
other issues. But I am pleased, at least, that we are moving 
forward. But it shouldn't have taken so long.
    The chairman mentioned about the U.S. losing its lead, and 
I think there is an extraordinary threat to the U.S. aviation 
industry. It wasn't anticipated in this legislation, it is not 
a subject of this hearing, but I am going to bring it up 
anyway, and that is the fact that Norwegian Air International, 
which is coming from a country which is not part of our Open 
Skies Agreement, is going to create a fake headquarters in 
Ireland, which is part of our Open Skies Agreement, so that 
they can try and leverage themselves into the U.S. market. And 
they are developing a new business model, which is based on the 
merchant marine. And I don't know how familiar you are with 
that, but a lot of ships are registered in Liberia. And, as I 
pointed out in the past, Liberia has no navy, it doesn't have 
any government, but their office is somewhere down there in 
Reston, Virginia, with a former Coast Guard guy. That is 
Liberia.
    So, if we want enforcement of safety, crew training, any of 
those things, we discourse with a former Coast Guard guy who 
represents the nonexistent government, or virtually nonexistent 
government. I don't want to take aviation to that standard, and 
that is what these people intend to do. They are going to use 
part-time crews that are brokered from around the world. Where 
can we get the cheapest flight crew? Doesn't matter how good 
they are, it doesn't matter--there is no consistency in their 
training, their hours of service, anything else. But, you know, 
``Oh, well, bring in the crew from Indonesia this week, they 
just bid lower.''
    So, this is a potentially very destructive business model. 
And the last time we had someone here from the FAA, they said 
sort of, ``Yes, we are looking at it.'' What is your--do you 
have a level of concern about what this is going to do to our 
standards? I used to carry on about Frank Lorenzo dragging down 
the whole industry here. This is, like, a way bigger threat.
    Mr. Huerta. Well, the FAA's regulatory authority does not 
extend to the business structure, but the Department of 
Transportation's does.
    My understanding of where we are with that is that 
Norwegian Air has applied to DOT for initial operating 
authority to conduct scheduled and charter passenger and cargo 
services between the United States and Europe pursuant to the 
existing Open Skies Agreement that we have with Europe. Because 
NAI is still awaiting regulatory approval in Ireland. NAI's 
application is not yet complete; therefore, the Department 
cannot act on it.
    Because the application is pending before DOT and is 
contested, I can't really say much more beyond that. They have 
an incomplete application, and it is something that I am sure 
that my DOT colleagues are taking a very close look at.
    Mr. DeFazio. Well, I would hope that the FAA, as advocates 
for--since I got the law changed after a horrific airplane 
crash--no longer has a strict promotional authority for 
aviation, but you still are--you still have some concern with 
that, but your bigger concern is safety.
    Mr. Huerta. Right.
    Mr. DeFazio. And I think we are looking at both things 
here. We are looking at competitive disadvantage, and we are 
looking at something that would jeopardize the safety of the 
American flying public. And you and your agency are the experts 
on that. And I would assume that you maybe can't say anything 
here, but you are taking a strong position in advocating to DOT 
on this to use whatever scrutiny and tools they can to 
basically thwart this end run by this--you know, by these 
brilliant people who are going to somehow advantage consumers, 
they tell us.
    Well, as I have said many years on this committee, I will 
pay an extra 2 bucks for a ticket to know I will get there 
alive. And that is what this is about. Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. Gentlemen, good to have 
you all with us today.
    Mr. Scovel, during the most recent FAA reauthorization, 
language was included in section 424 that established a policy 
for the transportation of musical instruments. As yet, no final 
regulation has been issued by the FAA. How soon do you expect 
these final regs to be completed?
    Mr. Scovel. Thank you, Mr. Coble. We have been in touch 
with your staff, and we know of your keen interest in this 
particular issue. And we commend you and the committee and the 
Congress for including it in the act.
    I must say that we have not, in the OIG, undertaken any 
review of FAA's efforts to implement that specific provision of 
the act. So I might defer to Mr. Huerta on this question, if he 
has those details.
    Mr. Huerta. Mr. Coble----
    Mr. Coble. Cautiously optimistic, I hope.
    Mr. Huerta. Mr. Coble, I will have to take an IOU and get 
back to you, which I commit to do.
    Mr. Coble. I didn't hear you, Mr. Huerta.
    Mr. Huerta. I will have to check on the status and get back 
to you.
    Mr. Coble. Oh, I appreciate that, if you get back in touch 
with us.
    Mr. Huerta. I will.
    Mr. Coble. Mr. Huerta, yesterday's New York Times included 
an article on how the FAA's new pilot qualifications and flight 
and duty time rules, in effect for just a few months, have 
already caused a shortage of commercial airline pilots, leading 
some airlines, I am told, to reduce service at less profitable 
small and medium airports.
    In drafting the rules, did the FAA consider the impact on 
the Nation's pilot workforce, especially in light of the fact 
that a majority of our pilots are approaching the mandatory 
retirement age of 65?
    Mr. Huerta. Thank you, Mr. Coble. As you know, the thing 
that we did focus on in the development of all of these rules, 
is how do we maintain the highest levels of safety.
    Following the Colgan Air crash in 2009, the FAA identified 
pilot fatigue and training as areas of high risk, and we began 
the rulemaking process to address these issues.
    Later, Congress mandated improvements in each of these 
areas under the Airline Safety and Federal Aviation 
Administration Extension Act of 2010, and added improving pilot 
qualifications and requiring first officers, known as copilots, 
to hold an airline transport pilot certificate, and requiring 
1,500 hours total flying time as a pilot. So that was included 
in the 2010 Act.
    We issued the pilot fatigue rule in December 2011, giving 
the airlines more than 2 years to comply with the regulations. 
The training rule was finalized in November of last year, with 
a 5-year ramp allowing airlines to comply with it. This allows 
time for the necessary software upgrades to be made to the 
flight simulation technology that is required to do this.
    The pilot qualification rule was finalized in July 2013. 
And I think this is the one that many in the industry are 
pointing to as being the most significant factor. As you will 
recall, the statute requires that a copilot have 1,500 hours of 
flight time in order to achieve first officer qualification. 
The rule that we put in place is actually designed to allow 
military and academic credit to count as credit toward that 
1,500-hour requirement. So we can reduce the 1,500-hour 
requirement within the authorities that were given us by 
Congress to consider academic credit and military service.
    It is a significant change in what previous qualifications 
and training requirements had been. The intent of Congress 
directed the agency to really focus on how do we achieve the 
highest levels of safety. I think the rules are designed to do 
that.
    Mr. Coble. Let me put this question to you, Mr. Huerta. In 
light of the pilot shortage, is it your belief that the 
Congress should nullify the underlying statute? And, if so, can 
you provide suggested changes that would help to mitigate the 
impact of pilot workforce shortage?
    Mr. Huerta. I think, as it relates to the shortage, there 
are different points of view on that. Clearly, many in industry 
feel that there is a looming shortage, combined with the point 
that you made, such as retirements. There are questions that 
have been raised. Is it an attractive profession? Others, on 
the other side, have said that this is really a matter of what 
airlines are willing to pay pilots.
    I think all of those factors need to be considered. We 
would be happy to work with the committee to provide technical 
assistance as you consider the perspectives that are out there, 
and possible changes that you might be willing to consider.
    Mr. Coble. Thank you, gentlemen, for being with us.
    Dr. Dillingham. Mr. Coble?
    Mr. Coble. Yes, sir?
    Dr. Dillingham. At the request of this committee, we will 
be issuing a report in the next several weeks that focuses on 
the potential pilot shortage, and takes into account those 
variables that you mentioned: retirement, training, and the 
impact on the industry. Hopefully, that report will provide a 
basis for the Congress to get some objective information on 
this issue.
    Mr. Coble. Thank you, Doctor, I appreciate that. Thank you, 
gentlemen. Yield back, Mr. Chairman.
    Mr. LoBiondo. Mr. Lipinski?
    Mr. Lipinski. Thank you, Mr. Chairman. I want to thank you 
and Chairman Shuster and Ranking Member Larsen for holding this 
hearing. Oversight isn't--oftentimes does not get the 
headlines, but it is important. If we are going to pass 
legislation, we got to do the oversight.
    And I appreciate Mr. DeFazio's questions, and I want to 
just concur with those, especially on the foreign repair 
stations, although I think Mr. DeFazio may have misinterpreted 
that--he said I was no longer here. He must have been talking 
about my father. But I am here. That is the most important 
thing.
    [Laughter.]
    Mr. Lipinski. I want to talk about NextGen. It has been 
brought up already. Obviously, it is something that is clearly 
my biggest focus here, probably, on the Aviation Subcommittee, 
the importance for enhancing safety, improving efficiency, 
lowering emissions, and helping to support America's success as 
a global leader in aviation. Those are all critically 
important. We understand that.
    In the reauthorization bill, I was proud to work with Mr. 
Mica to include section 221 in the bill, which allows DOT to 
establish public-private partnerships to boost NextGen by 
advancing the installation of ADS-B avionics on aircraft as 
soon as possible. And it is something that I hope that we 
continue to move forward on.
    But I want to ask Administrator Huerta, you know, a key 
foundation of NextGen is deployment of ADS-B terrestrial 
network in 2014. We have to ensure that, by 2020, the majority 
of aircraft will be equipped with avionics. Now, in order to 
accelerate and incentivize aircraft equipage in the near term, 
many air carriers believe that FAA should augment the 
terrestrial ADS-B network with a space-based ADS-B. Doing so 
could provide significant tangible savings, would bring the 
benefits of NextGen to reality more quickly.
    For these reasons, I would like to ask, first, what is the 
current status of FAA's initial investment decision on space-
based ADS-B?
    Mr. Huerta. Well, as you mentioned, ADS-B is an important 
foundational technology, and we have been in discussions with 
the private-sector partners that are really focused on the 
deployment of this new technology.
    There are two dimensions to what they are doing. 
Essentially, they want to use space-based equipment to deliver 
the ADS-B signal, and thereby provide visibility over the 
oceans. The FAA is focused on working with Iridium and Aireon 
and their partners in setting the specifications and 
configuration of space-based ADS-B surveillance.
    We are not monetarily investing in the development of the 
Aireon system. We view that as something that is best done in 
the private sector. We are investing resources to validate the 
design, to pay for the technical business case reports that the 
FAA requires, and for the detailed development of alternatives 
that, ultimately, the FAA is going to be able to use.
    We recognize the potential high value of the Iridium 
system, particularly what it can provide in oceanic airspace. 
As the world's largest air navigation service provider, we want 
to ensure that we are involved in the development and standard 
setting of this new technology.
    Mr. Lipinski. Well, what are you--I have concerns that we 
are behind other countries on this front. I just want to ask. 
What is the FAA's timeframe for moving forward with the space-
based ADS-B?
    Mr. Huerta. An initial investment decision is going to be 
made by our Joint Resources Council later this year to decide 
what form the agency's continued participation would take in 
the years ahead.
    Mr. Lipinski. So do you have a timeframe for when you think 
it is actually going to start moving forward? And do you have a 
concern? Do you feel the country is moving ahead of us and is 
losing our leadership in this area?
    Mr. Huerta. Taking that question first, I don't think we 
are losing our leadership, because we have chosen to focus, 
first and foremost, on specifications and configuration. That 
will ensure that the standards that the FAA needs to have 
developed for this are the standards that will be used 
globally.
    We do not necessarily think that requires us to take an 
investment position in a company that is developing that 
technology. Others might make a different decision, but we 
believe that our leadership position is very much protected, as 
long as we can focus on the resulting technology that comes out 
the other end.
    Mr. Lipinski. All right, thank you. I yield back.
    Mr. LoBiondo. The gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman.
    And I am sorry I had to go to another committee and didn't 
get to hear your testimony, but I have gone over some of it. 
And Dr. Dillingham mentions that this NextGen process has been 
over 10 years, and that we asked him to start monitoring it in 
2006. And I am just wondering, and I will ask any of the three 
of you or all three of you. Where are we now? Can you tell me 
how much money we have spent, total, on NextGen so far, how 
much we will be spending this year, and how much more we need 
to spend in the years ahead?
    And I am assuming that all of you will say that the 
benefits have far outweighed the costs--or at least I am 
guessing that is what you would say. But will we ever reach a 
point--I mean when you build a building, when you build a giant 
skyscraper, at one point the building is finished. Of course, 
you always have to maintain it, and you have to occasionally 
improve it. But where are we on all those things?
    Dr. Dillingham. Mr. Duncan, thank you for the question. 
Yes, we have been, at the request of this committee and others 
in Congress, monitoring this from the very beginning.
    I think the consensus is we are a long way from where we 
want to be and where we thought we would be at this point in 
time. Progress has been slow. I think there is now more of a 
realization that NextGen is a transition, rather than a leap 
forward all at once. And that it will take time.
    I think there is evidence of that. We see and hear from the 
aviation community that FAA may need to sort of reset, based on 
the RTCA recommendations and the NAC recommendations. What can 
we really achieve? What is the reality, versus what was the 
vision at some point in time?
    Mr. Duncan. Right.
    Dr. Dillingham. We are hearing community people talk about 
maybe it is time to look for a new way of doing this. Perhaps 
it can be done within FAA with the new leadership, or perhaps 
we need to think about how this is done around the world, 
separating safety from operations in modernization.
    The last time we had any information about money spent at 
this point in time, we were told that we have expended about $5 
billion on NextGen over the last several years.
    Mr. Duncan. All right. Any other comments?
    Mr. Scovel. Mr. Duncan, if I may?
    Mr. Duncan. Yes, sir.
    Mr. Scovel. We would concur with Dr. Dillingham's figure of 
about $5 billion in Federal investments; $5 billion to $6 
billion at this point, cumulatively, over the last 9 or 10 
years, is about right.
    The committee will well remember that the initial estimates 
from 9 or 10 years back called for $20 billion in Federal 
investments, plus another $20 billion in private investments, 
with a stated goal of completing implementation of the program 
by 2025. We are clearly not going to make it all by 2025, and 
we are clearly not going to make it with a total of $40 billion 
in investments, Federal and private. We are probably looking 
years beyond 2025, perhaps another 10, even.
    Mr. Duncan. Wow.
    Mr. Scovel. Because, as has been stated, this is an 
evolutionary, rather than a revolutionary process. A 
transition, rather than a leap.
    And we are probably also looking at total expenditures in 
an order of magnitude two to three times that of the initial 
$40 billion estimate to achieve the original plan.
    As far as resetting NextGen, FAA is backing in to that 
process right now. It may be regrettable in the eyes of many 
that it has taken us 9 or 10 years to get where we are now. But 
if you look at where FAA is organizationally, with the Chief 
NextGen Officer at the Deputy Administrator level, and 
Assistant Administrator for NextGen, and a program management 
office, whether it is directly aligned underneath those 
officers or over in the operations side, where many in FAA 
believe it should be, in order to avoid a fault line at that 
point, organizationally FAA is getting close.
    As far as the near-term and midterm process, FAA--
thankfully, through the RTCA's Task Force 5, and the recent NAC 
investments--it is getting close there, too. They are focusing 
on performance-based navigation and the metroplex improvements 
in the very near term.
    Moving on, they have got to get ERAM right, they also have 
got to get the automation platforms right for terminal 
modernization. Then they need to get to DataComm. Because if we 
get to 2020 with ADS-B Out coming in, and we don't have all of 
those pieces in place already, then we are a house without a 
foundation yet.
    Now, the real benefits for the commercial users are going 
to be with ADS-B In. And Mr. Huerta is correct on that. 
Industry well recognizes, too, that the technical requirements 
are not yet stable. FAA is not in a position to mandate ADS-B 
In yet. So we are looking clearly into the next decade before 
we can say truly that there are measurable improvements for the 
commercial airlines at congested U.S. airports.
    Mr. Duncan. Well, you have raised other questions in my 
mind, but my time has expired.
    But, Administrator Huerta, do you want to----
    Mr. Huerta. I would like to concur with the point that was 
made by Mr. Dillingham and Mr. Scovel, which is it is an 
evolutionary process. I think it is important to point out 
where we are and where we have made success.
    As I said in my testimony, a lot of the foundational 
platforms on which NextGen is built are nearing completion. I 
talked about how ERAM is going to be fully deployed and 
exclusively used for operations next year. Likewise, we will 
complete the build-out of the ADS-B ground infrastructure 
program, which is also a foundational platform. Then we are 
well positioned with respect to the terminal component to our 
automation platforms, or TAMR.
    Mr. Scovel is quite right. DataComm is extremely important. 
We have done some great work, in terms of demonstrating the 
benefits of DataComm through some trials. Our focus is that we 
have these platforms, we have these systems, and now we are 
building the applications on them. That is where the work that 
we are doing on such things as performance-based navigation 
becomes so important. With the foundational technologies in 
place, we have to focus on what we can do to maximize delivery 
of benefits, and ensure that the community, who has invested a 
lot and will invest a lot more, will see something positive 
coming out of the end of that.
    Mr. LoBiondo. Mr. Carson?
    Mr. Carson. Thank you, Mr. Chairman. One of the 
requirements of the 2012 FAA Modernization and Reform Act was 
to assess the participation of small and disadvantaged 
businesses with DOT and FAA programs. This is a very important 
issue, and I would like to hear from each of the witnesses 
about what you have learned so far. What are the immediate 
recommendations for improving participation? And what should we 
be considering for the long term?
    Mr. Scovel. Thank you, sir. If I may, in the Office of 
Inspector General we have had now two audits, one complete and 
one underway--it will be completed later this year--dealing 
with the entire Department of Transportation's disadvantaged 
business enterprise program.
    Our first audit, which we have completed and reported to 
Congress--and there has been intense interest on the part of 
many Members, as well as the Nation at large--was on how DOT 
administers its DBE program. We did not include FAA in that 
particular audit, because FAA, as the committee knows, has its 
own procurement system and acquisition regulations. Therefore, 
we thought that if we examined FAA's in conjunction with the 
Department's, it might lead to mixed conclusions and mixed 
messaging, perhaps the potential for misunderstood results.
    So we have reported on DOT, we have made a series of 
recommendations, which Secretary Foxx has taken most seriously. 
The Department is well underway with putting them in place. We 
are encouraged at what they have told us they would do in 
concurring with our recommendations. We have also been very 
pleased with the interest on the part of many Members of 
Congress in making sure that the Department executes this 
important program right.
    Our audit with respect to FAA's implementation of the DBE 
program is underway. I am not in a position to share our 
results now, because our work is not yet complete, and we 
haven't yet spoken with the agency, with FAA, to brief them in 
advance, as we must, under our audit standards. But I can 
assure the committee that we will have those results for you 
later this year.
    Mr. Carson. Thank you. Yes, sir?
    Mr. Huerta. Sir, if I could just say that, while the audit 
is underway and we look forward to discussing this with the 
inspector general, I will point out that this is an important 
program in a whole lot of areas. It is certainly an important 
area of focus for me. It is something that our organization 
spends a lot of time focusing on. How can we structure 
procurements, particularly in the technology area, where you 
have a lot of opportunity for participation by smaller 
businesses? That is where a lot of innovation takes place. We 
want to ensure that we are able to leverage those contributions 
and provide appropriate opportunities for disadvantaged 
businesses in these incredibly important programs.
    Mr. Carson. Thank you.
    Dr. Dillingham. Mr. Carson, that provision of the act was 
not a part of what GAO has looked at.
    Mr. Carson. OK. Thank you, Mr. Chairman. I yield back my 
time.
    Mr. LoBiondo. OK, and Mr. Webster?
    Mr. Webster. Thank you, Mr. Chairman. I would like to ask 
Mr. Scovel. Have you had anything to follow up on the 
discussion that was done between the chairman and the 
Administrator on performance-based navigation? Specifically, 
the two reports that were due last year some time on those 
procedures which would--flight procedures for medium and large-
sized commercial airports.
    Mr. Scovel. Thank you, sir. Performance-based navigation 
and enhancements to that have been at the top--or very near the 
top--of the shopping list for the aviation community, in terms 
of what it would like to see FAA turn its attention to most 
immediately for NextGen enhancements.
    Our work with regard to performance-based navigation 
several years ago showed that FAA, at that time, was focusing 
on the quantity of PBN procedures, rather than the quality. 
Consequently, the agency was overlaying PBN procedures over 
existing air traffic procedures without being able to show to 
the users that they would achieve much, if anything, if they 
were to implement them.
    Since then, and with the mandate of the Congress in this 
Act, FAA has relied to some degree not just on its own in-house 
resources to develop PBN procedures, but has worked with a 
private contractor to develop more of those. Those have been 
encouraging, we understand, to members of the aviation 
community who would like more PBN usage.
    Some members of the airline community feel frustrated 
because, while they have equipped and they have even secured 
approval from the agency for performance-based navigation 
usage, they have been stymied at the airport level, because 
tower and TRACON controllers need to have the proper guidance 
and training in order to approve the use, operation-by-
operation, by an approaching aircraft. We have found that 
controller training in this area has been lacking. We have 
encouraged, and the committee has encouraged, as well, FAA to 
turn its attention to that as a way to mitigate a nontechnical 
barrier to achieving NextGen improvements.
    Mr. Webster. Dr. Dillingham, did you have anything to add 
to that?
    Dr. Dillingham. Yes, sir. I think, by default, performance-
based navigation has become near-term NextGen. As the inspector 
general said, the community is very interested in getting as 
much out of the current equipment that is available on the 
aircraft as possible. And I think FAA has made a strong effort 
to meet the needs of that community.
    What we have said to FAA is, ``What you need to do is you 
need to be able to show to the airline industry, and for your 
own budgetary purposes, how much PBN routes are being used, 
which are not being used, so that you can invest in those that 
are giving the most service, and that you can also encourage 
the airline industry to participate.''
    Mr. Webster. Even without NextGen, though, many of those 
procedures could be implemented. Is that correct?
    Dr. Dillingham. Yes, sir.
    Mr. Webster. OK. Thank you very much. Yield back.
    Mr. LoBiondo. Mr. Cohen?
    Mr. Cohen. Thank you, sir. Administrator Huerta, first, 
thank you for coming in. I appreciate your efforts in Memphis 
over the years in working with me. But there is an issue 
regarding airports and the development around that. You shake 
your head, so we--you don't have your turban, but you know my 
question. And it does deal with Part 77. And in the past we 
have had hearings. And we have been assured there would be 
public input and hearings and a full report with the Office of 
Management and Budget on the impact of these changes.
    The changes in Part 77 and the OEI has an effect on 
development at airports, not just in Memphis, but in DC and 
other areas. It is height of structures, et cetera. Are we 
going to be able to have a traditional hearing on these issues, 
so that the overall commercial impact of this rule affecting 
airport communities, airtropolises, can be had?
    Mr. Huerta. Mr. Cohen, thank you very much. Yes, I am well 
aware of your interest. As we have talked about, this is an 
issue that is something that we are looking at very carefully.
    What the specific issue is is to consider operations of 
aircraft that might experience an outage of an engine on 
departure, and do there need to be restrictions around the 
airport to plan for that possibility. The existing framework is 
that it is up to an individual airline to determine, which 
leads to piecemeal application. But, most importantly, those 
procedures are not made public.
    So, what the FAA has been considering is a way to 
rationalize that process. I provided an assurance to you that 
anything we did would be subject to a public process, and that 
commitment stands. We are in the process now of framing out 
what a notice would look like, and we want to engage in a 
public discussion of that before we make anything final.
    Mr. Cohen. Thank you. Would that include, in the 
rulemaking, the Office of Management and Budget cost-benefit 
analysis?
    Mr. Huerta. At this point, what we are really looking at is 
what are the policy options that are available to us, and 
whether it is something that is best done on an airport-by-
airport basis in a voluntary fashion, or what other options are 
available. But you know, all of that will be part of the public 
discussion.
    Mr. Cohen. Well, it shouldn't be proprietary, and that is 
what it is right now, with the airlines----
    Mr. Huerta. Correct.
    Mr. Cohen [continuing]. Private, nontransparent--and the 
public's concern that highrises or--whatever, I mean, if it 
falls on the one-story building with lots of folks or if it 
runs into a taller building, it is a problem still there, and 
it does affect----
    Mr. Huerta. Absolutely.
    Mr. Cohen. Speaking of airports and the economic impact 
thereof, you mentioned in your statement some things about 
NextGen and how you work on city payers and gate--how the large 
airports are--how effective they are, and runways, and traffic 
flows, improving air traffic flows in busy metropolitan areas, 
gate-to-gate travel, et cetera, et cetera, et cetera.
    You looked at the top 30 airports. I don't know if 
Memphis--I guess it is still considered that because of FedEx, 
is that right?
    Mr. Huerta. Correct.
    Mr. Cohen. Because of Delta, we are not necessarily where 
we were. We have fallen in the ratings.
    When you look at key city pairs, distance time, distance 
and time and fuel reduction--you have got here runway safety 
and all these considerations--has the FAA ever considered 
putting a maximum number of departures from an airport that 
serves as a hub for the convenience of the public, and that 
sometimes, just as too-big-to-fail, too big to serve in a 
proper fashion?
    Atlanta is one that I would think of, specifically. People 
aren't clamoring to go to Atlanta, like they may be to go to 
Los Angeles or New York, we have got large airports. But they 
go there because they are forced to go there. If you want to 
get to Denver from Memphis, you have to go through Atlanta. 
When you die, you might have to go to Atlanta before you get 
to, you know, the opportunity to enter. Have you considered 
limitations?
    Mr. Huerta. The FAA looks only at the number of operations 
that an airport can safely accommodate. In terms of looking at 
a particular carrier in their operations, that would be a form 
of economic regulation----
    Mr. Cohen. How about public convenience, and the public 
convenience of having to be--what is wonderful, FedEx does with 
packages, humans are different. And we are like packages being 
sent around the country.
    Mr. Huerta. But that was exactly the sort of direction that 
Congress provided in the 1970s that we wanted to get out of, 
regulating----
    Mr. Cohen. We made a mistake.
    Mr. Huerta. We, as a Government, made a determination at 
that point that the market was the best place to sort out the 
nature of the services.
    Mr. Cohen. But we now know that is wrong, because you have 
got Cincinnati and Pittsburgh and St. Louis and Memphis and 
others--Cleveland, now, with United leaving--and airports that 
have been built with public funds to accommodate hubs in 
airports and companies, airlines, and now we have congestion 
and humans being treated like packages, not being put on 
drones, but having to go through Atlanta to get to anywhere. 
And it seems like public convenience, we should have learned 
from our mistake. And I hope you will look into that, the 
possibility that some airports are too big, and they should 
fail.
    Mr. Huerta. We look forward to working with Congress on 
however we should operate the aviation system.
    [Laughter.]
    Mr. Cohen. Thank you, sir.
    Mr. LoBiondo. Mr. Meadows?
    Mr. Meadows. Thank you, Mr. Chairman. Thank each of you for 
being here today. I know that each of you have a commitment to 
make sure that not only we implement NextGen with efficiency 
and accountability, but also that we are competitive globally. 
And so I thank you for that.
    Mr. Huerta, I wanted to give you a chance. I know when Mr. 
Scovel said that it would be beyond our implementation time, 
some 10 to 15 years, you winced at that in disagreement. So I 
will go ahead and open it and let you address when you think 
those benchmarks might be made.
    Mr. Huerta. Well, thank you for that, Mr. Meadows. As 
everyone has talked about, this is an evolutionary process. I 
think a lot of it depends on how can we deliver the benefits to 
the industry to encourage them to equip. We are in this trade-
off that we consider between mandates and incentives.
    What we have heard clearly from industry is that providing 
operational incentives is the highest priority, because that is 
where they get the maximum benefit.
    Mr. Meadows. Sure.
    Mr. Huerta. That is where we are very focused. The part we 
have to focus on is deploying the basic technology, ensuring 
that the procedures are in place, and, most importantly, 
ensuring that they are used and are delivering the benefit. 
That has a lot of operational requirements that it imposes on 
us.
    I do believe that we are----
    Mr. Meadows. So do you think you will meet the deadline? I 
know the inspector general's office does not. Do you think you 
will meet the 2025 deadline, or----
    Mr. Huerta. In terms of the capabilities that we have laid 
out to achieve by 2025, I do feel that the vast majority of 
those we will be able to meet. The question that we have is 
will we be in a position to be getting the maximum benefit we 
would like to get at that point. That is where I am very 
focused.
    Mr. Meadows. Well, and if you could, at a later time in 
your response, just illuminate perhaps some of those areas you 
are concerned about, in terms of----
    Mr. Huerta. Sure.
    Mr. Meadows [continuing]. Potentially not getting the 
benefit.
    Dr. Dillingham, I am going to come back to you. When it was 
mentioned that we have spent $5 billion on NextGen, and that 
Mr. Duncan said, ``I assume that we have gotten benefit,'' you 
raised your eyebrow. And so I would like you to comment on 
that. Because, according to my cost estimates, I would show 
that it is probably closer to $6 billion that we have spent on 
NextGen. I am not going to argue, you know, what is a billion 
here or there. But have we gotten--in your opinion, have we 
gotten the benefit so far of the money, the hard money that we 
have invested?
    Dr. Dillingham. Thank you, Mr. Meadows. I--it is hard to 
say what the benefits that we have gotten thus far are worth, 
in terms of putting a dollar amount on it. I think that some of 
the accomplishments, some of the laying the bases for what we 
are going to get, that one has to take that into consideration.
    As the Administrator said, we are trying to put in place 
the base, so that we can build for all of those capabilities. 
And it----
    Mr. Meadows. So we have laid the foundation in hopes of 
getting a benefit. So today we wouldn't have a $6 billion 
benefit, but hopefully the foundation is laid for that benefit 
to pay good return in the future.
    Dr. Dillingham. Absolutely. And I think part of that is 
sort of realizing the difference between what you predict 10 
years ago, and as technology changes, as things happen----
    Mr. Meadows. Sure.
    Dr. Dillingham [continuing]. What the reality really is. So 
I think that the benefits will come.
    Mr. Meadows. OK. Here is what I would ask, then, as we go 
forward. Because it is very easy to see that what we have 
embarked on is much greater than perhaps we all realized. 
Stakeholders are frustrated because they are investing money 
and they are not seeing perhaps a commensurate level of 
investment or commitment to reaching those benchmarks. And yet 
they are asking to make significant financial investments, as 
well.
    And so, Administrator Huerta, if you would, without us 
looking at the failures of the past, or benchmarks that have 
been missed, if you would, as we look to this reauthorization, 
look at what are some of the areas of concern, i.e., you know, 
are there workforce issues, in terms of implementation? And so, 
I am asking you officially so that you don't have to go out and 
be the bad guy for you to respond to Congress.
    And, with that, I will submit the rest of the questions for 
the record later. I yield back.
    Mr. LoBiondo. OK. Ms. Esty?
    Ms. Esty. Thank you, Mr. Chairman. I would like to start by 
thanking our panel for coming and testifying. I am the newest 
member of the Aviation Subcommittee, so I am getting up to 
speed, and your help is greatly appreciated.
    I have recently toured some of the contract towers in my 
district, in Danbury, met with pilots and crewmembers 
throughout Connecticut. And many of the manufacturers, as you 
well know, also reside and have home bases in my State. And I 
have heard from all of them about their concerns about the 
timetable and our progress towards implementing NextGen. And I 
believe it is absolutely critical for the U.S. to continue to 
set the gold standard for aviation safety, so we must do a 
better job.
    So, following up on my colleague, Mr. Meadow's, question, 
what can we do? What can you do? How are you going to keep the 
private sector stakeholders involved in this process, which 
they have gotten, clearly, frustrated and discouraged in? And 
what are your proposals for moving forward, keeping them 
engaged so that we do really move forward in a much more timely 
fashion?
    Mr. Huerta. I think the key point is focusing on what it is 
that they need, operationally, and ensuring that we are focused 
on delivering it. That is what was underlying our request to 
the NextGen Advisory Committee to establish their priorities, 
and that is the foundational point of our performance-based 
navigation initiative.
    To illustrate what was going on, you heard from Mr. 
Dillingham that in the past the focus had been on quantity, 
rather than quality. Let's develop the maximum number of 
advanced procedures, but without there being a clear sense that 
all of them are necessarily in the same place, with respect to 
their usability and, more importantly, their benefit.
    So, the way that the program has been redesigned is we 
break the country up into metropolitan areas, where you can 
really dive in and develop a very detailed understanding of 
what are the specific requirements of that area, such as around 
Atlanta or around Washington or around Dallas. Who are the 
specific stakeholders? What are the actual flights they want 
affected? And then, how can we, working collaboratively with 
controllers and pilots and all the users of the system, and GA, 
develop an understanding of what is going to work for the 
whole? I think that process has served us well.
    The downside of it is that it is a collaborative process 
and, by definition, it is messy and takes a long time. So, the 
most important thing we can do is stay the course on those 
efforts, and not lose sight of the fact that we are all in this 
for an important reason, and that is to get a benefit of 
deploying these new technologies.
    Ms. Esty. Thank you. And, actually, I want to give you a 
heads up. I have got a fairly detailed question that I will be 
submitting about the categorical exclusion requirement, which I 
think will not be of interest to many people here, and is very 
detailed. I wanted to let you know I will be following up.
    But again, I do think it is critically important, not only 
that we engage these stakeholders--and collaboration does, 
obviously, lead to better results--but it does need to be done 
in a timely fashion, because we need critical masses to make 
these investments in equipment. It would be very good for our 
economy if everyone can hold hands and jump in rapidly to make 
this happen, and we can begin to realize the benefits.
    So, we do have to balance the benefits of collaboration 
with recognizing there is a timeliness component here that, if 
we don't get that right, we actually, then, risk falling behind 
the curve. Other parts of the world set that standard, and we 
aren't being part of that process. So I think we do need to be 
attentive to that issue. Thank you very much.
    Mr. Davis [presiding]. All right. The gentlelady's time has 
expired. The Chair would like to recognize Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. I have just one 
question, and I know that Mr. DeFazio wanted a second round, as 
well.
    But the question for Inspector General Scovel, in your 
testimony, in your report, you discussed the safety workforce 
for the FAA. And can you--for our record, can you just discuss 
whether or not the FAA has finished, or when they are about to 
finish, or when they will finish getting a model done to 
determine what exactly is the safety inspector workforce needs 
for the FAA?
    Mr. Scovel. Thanks, Mr. Larsen. Yes, we are talking about 
the aviation safety inspector workforce. In fiscal year 2013 
the FAA was authorized 4,104 inspectors. They requested the 
same number for this fiscal year, 2014. The situation with that 
particular workforce dates back many years.
    Congress, in the 2005-2006 timeframe, directed the agency 
to obtain a study from the National Research Council that would 
permit the development of a staffing model for aviation safety 
inspectors. The agency did that, received the study in 2009, 
and put it into place. It turned out that the model that was 
developed by FAA was clearly not adequate, and apparently was 
not well founded in order to deliver to the agency the specific 
numbers that it needed. There were some wide variations from 
year to year, in terms of the inspector shortfalls that the 
model had predicted.
    For instance, in January 2011, the model had predicted 389 
inspector vacancies, needed vacancies. The very next year it 
was 914. That was 2012. In 2013, estimated vacancies had fallen 
to 430. So, clearly, the needle on the compass was spinning all 
around the dial, and it couldn't find magnetic north.
    We did a study of the model at that point, and FAA 
concurred with us that further work needed to be done, in terms 
of validating the data, developing performance measurements, 
and figuring out the cost benefits to be achieved. FAA has 
taken the model offline. They are attempting to develop the 
details that are necessary in order to flesh it out completely. 
And we hope that, by the end of this calendar year, we will be 
able to see further progress on it.
    Mr. Huerta. Just to add to what the inspector general 
talked about, this model has been a challenge for us, as we try 
to anticipate what the needs are. There have been difficulties, 
moving forward.
    I would just like to add another dimension that we are also 
factoring in as well, and that is, as we approach safety, the 
nature and skill set of the individuals we are hiring is also a 
factor we need to consider. Previously, our aviation safety 
workforce has tended to come from industry, where they have 
developed experience in working in maintenance and operations 
of a major air carrier or other participant in the industry. 
That was based on an older safety assurance regime, which was 
essentially kind of a forensic approach: How do you prevent the 
last accident from happening?
    As we all know, this is an industry that has made great 
strides in achieving levels of safety. The flip side of that is 
we don't have a lot of accidents, and that is a good thing. But 
we do know that there is risk in the system, and we have to 
proactively manage that risk.
    So, the question for us is, in addition to the number of 
people we need, the skill set of the people that we need is 
also a factor that is itself changing as we are needing to rely 
more on data that might be in possession of the industry that 
we regulate. How do we put the mechanisms in place, so that we 
have full access to that data, while at the same time ensuring 
a level of collaboration while maintaining our regulatory role.
    Mr. Davis. The gentleman yields back. The Chair would like 
to recognize Mr. DeFazio for 5 minutes.
    Mr. DeFazio. I thank the chair. Administrator Huerta, you 
know, we have heard a good deal about NextGen, and I am not 
sure whether this question is somewhat repetitive, but, my 
experience has been when I came here 28 years ago, that I went 
out with Norm Mineta, then chair of the subcommittee, and we 
went out to see the air traffic controller station of the 
future, you know, this grand vision. I don't know what we--
can't remember what we called it back then. Still not there.
    How much have we spent thus far in this endeavor? You have 
a number?
    Mr. Huerta. We talked about a $6 billion number that has 
been spent to date.
    Mr. DeFazio. Yes, right.
    Mr. Huerta. A lot of that has been on foundational 
technology.
    Mr. DeFazio. Right.
    Mr. Huerta. And I would actually like to invite you to come 
to a tower and show you some of the things that we are using 
today.
    Mr. DeFazio. OK. That would be good. It has been a couple 
of years since I visited.
    But beyond that I guess I wonder, you know--you are saying 
it is foundational. So we are not really looking at--we can say 
at this point that investment has yielded this savings or these 
efficiencies those are kind of on the margin yet. Right?
    Mr. Huerta. Yes. You have to build the foundation.
    Mr. DeFazio. Right.
    Mr. Huerta. Then you build the applications on it. We are 
very focused now on realizing operational benefits. I would be 
the first to say that it is not moving as quickly as I would 
like, but it is the center of our focus.
    Mr. DeFazio. In Mr. Scovel's--you know, this has been sort 
of an enduring issue with me. I have described--no offense, but 
before your leadership I have described the FAA as the only 
agency of Government worse at procurement than the Pentagon. 
And it seems to me to come from constant and consistent change 
orders as we move through these projects.
    And Mr. Scovel says in his testimony that ADS-B In 
continues to evolve--the technical requirements continue to 
evolve. My question is, are we trying to chase the future, 
here? Because it is a rapidly evolving technology and industry. 
But if we just kind of said, ``OK, look. This is the best we 
have got today, it is going to provide these efficiencies, it 
is going to cost this much, let's settle on it, and let's let 
the next generation deal with this great new technology that 
lets planes, you know, do something else,'' or are we just 
going to keep saying, ``Oh, gee, this just came along, let's 
make another change''? And we will never get there.
    Mr. Huerta. No, I couldn't agree more with that, and that 
is a constant admonition that I am giving to our technical 
staff. We cannot let the perfect become the enemy of the good, 
because there is significant benefit that we are able to 
achieve, based on technology that we have.
    The other dimension to that, though, is ensuring that we 
are able to develop a consensus with industry about how they 
would like to use the technology. They will tell you they are 
not completely aligned on that. A big part of what we have to 
do is figure out how do we bring them together around 
something. You throw into the mix our friends in Europe and 
elsewhere in the world, because industry also does not want to 
have one set of issues going on on this side of the ocean, 
while there are other things going on on the other side.
    Mr. DeFazio. Right.
    Mr. Huerta. It is extremely frustrating sometimes. It takes 
way too long. But your admonition, which I couldn't agree more 
with, is don't let the perfect be the enemy of the good. We 
need to reach a point where we have a nice complement of 
benefits, and focus on getting to the end.
    Mr. DeFazio. Right. I would point out that Oregon has the--
I think--the only insurance exchange that still doesn't work, 
probably never will work, because they tried to create the 
future, and it is not working. They are taking paper 
applications, however. That is great.
    Quick question about the UAS. I am concerned. Congress set 
a hard deadline. There is obviously a lot of commercial 
pressure. There is, you know, a whole bunch of agencies, and 
everything, everybody--there is always pressure. But do you 
think--this is very complicated, in my mind, to integrate these 
things safely, not only into the airspace, but just 
operationally over populated areas, et cetera. Are you going to 
need more time to come up with something that is really going 
to work and be fully integrated and protect, you know, safety?
    Mr. Huerta. Congress' direction was to ensure safe 
integration of unmanned aircraft into the National Airspace 
System. I believe that the way we are approaching it is the 
only way we can approach it, through a staged process. That 
just as aircraft have different characteristics and they are 
introduced at different times, I see that is how unmanned 
aircraft will evolve. We won't get to a point where there will 
be one day where suddenly it will be everyone can operate 
anything any time. But, as we go through the certification and 
qualification process, there will be classes of these aircraft 
that we will be able to introduce, but with the overriding 
concern that we want to maximize the highest levels of safety.
    Mr. DeFazio. OK. I guess my--what I am saying is this is a 
case where I don't want you to feel jammed by an artificial 
deadline created by Congress, despite my complaints about 
NextGen.
    So, anyway, thank you, Mr. Chairman.
    Mr. Davis. The gentleman's time has expired. Thank you all 
very much for being here today.
    One of the benefits, again, of being a freshman and then 
coming to the chair is I get to ask my questions last. 
Administrator Huerta, I want to start with you.
    The FAA contract tower program has a strong and also 
bipartisan support here in Congress as one of the most cost-
effective safety programs for the agency and the taxpayers. And 
it is my understanding that the FAA continues to work on 
revising data used in the cost-benefit ratios that determine 
eligibility and cost share formulas. Is this accurate?
    Mr. Huerta. We are constantly looking to revise and 
evaluate how we understand what the cost profile for these 
contracts are, and how we can do them as effectively as 
possible, yes.
    Mr. Davis. OK. Well, can you share an update, quickly, of 
these revisions, and how you are going to ensure that the 
revisions to the cost-benefit ratios are done in a 
collaborative way, with input from the industry and the 
airports that would be impacted?
    Mr. Huerta. We would be happy to provide a briefing on 
that.
    Mr. Davis. OK, thank you. I do hope you will work closely 
with the industry. Obviously, in my district, in central 
Illinois, there were many that were worried about the contract 
hours last year. I am glad that has been solved. Thank you for 
your cooperation.
    I know there has been a lot of talk about the public-
private partnership language with NextGen. I am, obviously, 
interested in expanding P3 language with provisions that Cheri 
Bustos and I helped write for a WRRDA bill. I don't want to 
rehash some of the issues regarding NextGen, but I do want to 
ask you. What are your views on promoting more public-private 
partnerships during the next reauthorization?
    Mr. Huerta. I think it is extremely important. I think 
there are a number of technical issues that we may need help 
from Congress as we look at that question.
    One example is the large multitude of facilities that we 
have, and the need to replace certain of those as we consider 
consolidation, or refocusing. In some instances, we have 
facilities that are 50 years old and they need to be replaced. 
Under our current framework, all of that is done as a Federal 
project.
    But the real estate industry has evolved to a point where a 
lot of that can be done under lease or through some long-term 
commitment with a private party to provide something such as 
facilities. My understanding, though, is that there are 
technical issues on how those projects are considered in a 
budgetary context that have the effect of discouraging trying 
to achieve that sort of beneficial use.
    I think that there is a lot of potential in the facilities 
area. I think we need to focus as we have been focusing on how 
do we work with industry to develop operational procedures. You 
know, the FAA has, for a long time, been focusing on how can we 
work together with the private sector on provision of services. 
A lot of services that are provided under the FAA banner are, 
in fact, privately provided. That is something that we will 
continue to work on.
    This is a business that I was formerly in, so it is 
something that I know a little bit about. I believe it is 
important on two levels. One, is it enables us to get maximum 
benefit from taxpayer resources as they are expended. Two, it 
also builds partnerships with industry, and in an industry such 
as ours, which depends on close collaboration, strengthening 
those partnerships is something that is extremely important and 
has a lot of benefit.
    Mr. Davis. Well, thank you. And thank you for your 
cooperation, too.
    I guess we will leave this one to Mr. Scovel. I have a 
number of air medical services in my State: AirLife Illinois; 
Saints Flight. They are interested in the improvement of the 
low-level aviation infrastructure, especially when it comes to 
weather reporting. Section 317 of the FAA reauthorization 
requires the FAA to assess the quality of off-airport low-level 
weather reporting, and issue a report and recommendation within 
a year.
    My understanding is that has not yet occurred. Has the 
assessment even started? And do you have a timeline as to when 
the FAA is going to complete that work?
    Mr. Scovel. Thank you, Mr. Chairman. We have not examined 
that. That was not one of our mandates under the act, and we 
haven't undertaken ourselves to initiate an audit in that area.
    You mentioned aeromedical services in your district and 
State. I will say that we do have a body of work in that area. 
We have initiated specifically an audit to examine FAA's 
oversight of the helicopter emergency medical service providers 
to the extent that, whether factors will enter into our audit, 
we can certainly build those in. And, in the meantime, perhaps 
I could defer again to Mr. Huerta for----
    Mr. Davis. That is where I was going next.
    Mr. Scovel. Thanks.
    Mr. Huerta. We have conducted all the work that is 
necessary to finalize the report. We conducted a thorough 
review of aircraft weather observation technologies, and 
potentials for improvements. We also looked at NTSB reports. 
The report is currently being finalized and it is in executive 
review within the agency.
    Mr. Davis. Do you have an estimated timeline?
    Mr. Huerta. I don't. I will need to get back to you on 
that.
    Mr. Davis. I would appreciate that. My constituents have 
asked, and I would like to get back to them with that. So thank 
you for your cooperation.
    Mr. Huerta. Sure.
    Mr. Davis. Administrator Huerta, commercial aviation, as we 
know, drives over 10 million U.S. jobs and $1 trillion in 
economic activity per year, and about 5 percent of the total 
U.S. GDP. In your time at the FAA, can you identify for us 
three FAA policies or initiatives that have helped our airlines 
grow, create jobs, and compete with foreign airlines, many of 
whom receive direct assistance and subsidies from their 
Government?
    Mr. Huerta. I think that where I would focus is in two 
major areas. One is on the airline side, the other is on the 
aircraft manufacturing side.
    First, on the airline side, we have had a lot of 
conversation about delivery of benefit. But what has been the 
highest priority for me has been the operational benefit 
associated with performance-based navigation. What that does is 
it reduces the actual cost that an airline pays for fuel, which 
represents about 40 percent of their cost basis. If you can 
focus on reducing fuel cost, you are making for a stronger 
industry. That is something that all of us at the FAA are 
extremely focused on.
    Those impacts are very specific to particular procedures, 
particular airports, particular carriers, but we have a very 
broad base, where we are working through very detailed projects 
in a lot of metropolitan areas around the country.
    On the certification side, we are doing a lot of work on 
Part 23. This is the regulation that governs the manufacture of 
small aircraft and associated parts. This is an area that has 
gotten a lot of attention by Congress. It is also an area 
which, for us, is a very significant contributor to the economy 
and to our exports. The question that was given to us by 
industry and by Congress is how do we streamline the 
certification processes and the approval processes to enable 
these companies to bring new products to market.
    A lot of good work has been done there. A lot more is yet 
to be done. If you look at how a product is manufactured now, 
it truly is global, it truly is a very complicated process. 
What we have to recognize is that this is our largest export 
industry, it is where we lead the world, and we have to make 
sure that our industries have a level playing field.
    Mr. Davis. Well, thank you. I think, from the line of 
questioning that you saw here today, there is bipartisan 
commitment to ensuring that America doesn't lose a competitive 
advantage because of our regulatory environment. And there has 
been a lot of talk about the President being able to pick up 
his pen and increase the regulatory environment, not just on 
transportation-related issues, but many others.
    And, with that in mind, with so much discussion being put 
forth that the President is going to offer more and more rules 
and regulations, are you aware of any proposed FAA rules and 
regulations that the administration is considering at this 
point that this committee should be aware of?
    Mr. Huerta. Well, there is a number of regulations that we 
have been asked by Congress to implement.
    Mr. Davis. I am talking direct administration's, not 
congressional mandates. The administration--the regulations 
that could be--or are maybe in discussions, being proposed with 
the FAA by the administration, without any input from this 
committee or Congress, whatsoever.
    Mr. Huerta. No.
    Mr. Davis. Thank you. Any other questions? Mr. Capuano?
    Mr. Capuano. Just came by to say hello.
    Mr. Davis. This is a first, that Mr. Capuano has no 
questions.
    I am going to thank you on behalf of Chairman LoBiondo and 
this entire committee for your time here today. And, without 
any objection, and before Mr. Capuano decides to change his 
mind, this committee is adjourned.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]
    
    
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
   
    
    
    
    
    
    
                                    
</pre></body></html>
